Memorandum from the Office of the Inspector General



September 30, 2011

Robert J. Fisher, LP 3K-C

FINAL REPORT – INSPECTION 2010-13530 – REVIEW OF TVA'S FOSSIL FIRE
PROTECTION SYSTEMS



Attached is the subject final report for your review and action. Your written comments,
which addressed your management decision and actions planned or taken, have been
included in the report. Please notify us when final action is complete.

Information contained in this report may be subject to public disclosure. Please advise
use of any sensitive information in this report which you recommend be withheld.

If you have any questions, please contact Janell B. Cunio, Auditor, at (423) 785-4811 or
Greg R. Stinson, Director, Inspections, at (865) 633-7367. We appreciate the courtesy and
cooperation received from your staff during the audit.




Robert E. Martin
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

JC:SDB
Attachment
cc (Attachment):
     Warren P. Behlau, LP 2R-C
      Michael B. Fussell, WT 9B-K
      Kimberly S. Greene, WT 7B-K
      Peyton T. Hairston, Jr., WT 7B-K
      Tom D. Kilgore, WT 7B-K
      William R. McCollum, Jr., LP 6A-C
      Richard W. Moore, ET 4C-K
      Emily J. Reynolds, OCP 1L-NST
      John M. Thomas III, MR 6D-C
      Robert B. Wells, WT 9B-K
      Wendy Williams, WT 9B-K
      OIG File No. 2010-13530
             Tennessee Valley Authority
             Office of the Inspector General



Inspection Report

REVIEW OF TVA'S
FOSSIL FIRE
PROTECTION
SYSTEMS



                        Inspection 2010-13530
                           September 30, 2011
Office of the Inspector General                                     Inspection Report




ACRONYMS AND ABBREVIATIONS
FPG                        Fossil Power Group
FPSA                       Fire Protection Self-Assessment
NFPA                       National Fire Protection Association
OIC                        Operations Information Center
PER                        Problem Evaluation Report
SCBA                       Self-Contained Breathing Apparatus
SERTA                      Safety and Emergency Response Training Academy
SPP                        Standard Processes and Procedures
TVA                        Tennessee Valley Authority




Inspection 2010-13530
Office of the Inspector General                                                                  Inspection Report




TABLE OF CONTENTS
EXECUTIVE SUMMARY ................................................................................ i

BACKGROUND................................................................................................ 1

OBJECTIVE, SCOPE, AND METHODOLOGY ........................................ 2

FINDINGS ......................................................................................................... 3
   NUMEROUS FIRE PROTECTION SYSTEM IMPAIRMENTS EXIST, AND
   MOST ARE NOT RETURNED TO SERVICE IN A TIMELY MANNER. ........... 3

   FIRE BRIGADE MEMBERS HAVE CONERNS ABOUT FIRE RESPONSE
   PREPAREDNESS ............................................................................................ 6

   LESSONS LEARNED FROM FIRE EVENTS ARE NOT BEING
   CONSISTENTLY COMMUNICATED ACROSS THE FLEET ........................... 8

   OPPORTUNITES FOR IMPROVEMENT EXIST WITH FIRE
   PREVENTION ................................................................................................ 10

   INSTANCES OF NONCOMPLIANCE WITH TVA POLICY ............................ 13

RECOMMENDATIONS ................................................................................ 15

MANAGEMENT’S RESPONSE.................................................................. 15


APPENDIX

MEMORANDUM DATED SEPTEMBER 30, 2011, FROM ROBERT J. FISHER
TO ROBERT E. MARTIN




Inspection 2010-13530
                     Inspection 2010-13530 – Review of TVA's Fossil Fire
                                     Protection Systems
                                   EXECUTIVE SUMMARY

      Why the OIG Did This Review

           This review was initiated as part of the 2010 Annual Inspection Plan.

           The objective of our review was to determine if the fire protection systems are
           adequately maintained and mitigating actions are taken to minimize the impacts
           of fires at Tennessee Valley Authority (TVA) fossil plants.

      What the OIG Found

           During our review, we identified a number of issues related to fire protection at
           TVA’s fossil plants. Specifically, we found (1) that numerous impairmentsi exist
           with fire protection systems at a number of the sites and most are not returned to
           service in a timely manner, (2) some fire brigade members have concerns about
           fire response preparedness, (3) lessons learned from fire events are not being
           consistently communicated across the fleet, (4) opportunities for improvement
           with fire prevention, and (5) instances of noncompliance with TVA policy
           regarding testing, inspection, and maintenance of fire protection equipment,
           pre-fire plans, and use of fire equipment.

            Numerous fire protection system impairments exist and most are not
             returned to service in a timely manner.
                    We reviewed fire protection systems at five fossil plants and found that
                     numerous impaired fire protection systems existed in 2010. During
                     calendar year 2010, there were 30 impairments at Cumberland, 10 at
                     Gallatin, 6 at John Sevier, 20 at Paradise, and 49 at Shawnee. The
                     impairments in 2010 that have been closed were impaired for an
                     average length of between 40 and 158 days depending on the site. The
                     average number of days far exceeds the maximum 48-hour time frame
                     for system repairs.
            Fire brigade members have concerns about fire response preparedness.
                    Fire brigade members identified several areas of concern about fire
                     response preparedness. These concerns included poor fitting
                     equipment, condition of fire trucks, an inadequate staging area, bad
                     communication equipment, not enough training, and insufficient staffing.




i
    An impairment is a term for a fire protection system that is out of service.
                                                                                        Page i
          Inspection 2010-13530 – Review of TVA's Fossil Fire
                          Protection Systems
                        EXECUTIVE SUMMARY

   Lessons learned are not being consistently communicated across the
    fleet.
         Lessons learned from fire events are not being communicated
          consistently across the fleet. Lessons learned are shared in different
          ways and are not always shared with fire brigade members.
          Additionally, not all fire brigade members are interviewed following fire
          events. We also identified 10 Problem Evaluation Reports for fire
          incidents that were not reported in the Operations Information Center
          (OIC).

   Opportunities for improvement exist with fire prevention.
         Opportunities to improve fire prevention exist in the areas of coal dust
          accumulation and smoking. TVA policy establishes tolerable limits for
          coal dust accumulation and prohibits smoking in all TVA-owned or
          leased buildings. During our review, we observed areas of significant
          coal dust accumulation and evidence of smoking at several sites.

   Instances of noncompliance with TVA policy.
         We identified instances of noncompliance with some TVA fire protection
          policies. Two of the policies were: (1) Fossil Power Group (FPG)
          Standard Processes and Procedures (SPP) 18.121 Fire Protection
          Inspection, Testing, and Maintenance and (2) FPG.SPP.10.013 Fire
          Brigade Organization. Some systems were not inspected and tested as
          required. Additionally, we identified that pre-fire plans are in need of
          updating, and fire equipment is being misused.

What the OIG Recommends

  We recommend that the Senior Vice President, Fossil Generation:
     Take immediate steps to restore all impaired fire protection systems to
      service and determine if additional personnel or resources are needed to
      expedite repairs of fire protection systems in the future.

     Determine (1) the equipment needs of fire brigade members, including
      protective equipment and emergency communication devices, and take steps
      to provide that equipment, (2) what additional training is needed for fire
      brigade members and take steps to provide that training, and (3) if increased
      staffing is warranted for fire brigades.




                                                                               Page ii
           Inspection 2010-13530 – Review of TVA's Fossil Fire
                           Protection Systems
                         EXECUTIVE SUMMARY

      Create and implement a formal process for capturing and sharing lessons
       learned from fire events across the fleet, and capture all fire incidents and
       report them in a consistent manner in the OIC.

      Perform regular coal washdowns at all the plants to minimize coal dust
       accumulations, and strictly enforce TVA's "No Smoking" policy.

      Evaluate whether additional personnel are needed to properly inspect, test,
       and maintain fire protection equipment, update pre-fire plans to reflect current
       conditions, and reinforce that fire equipment is only to be used by fire brigade
       personnel.

TVA management agreed with our recommendations, and we concur with their
planned actions. See the Appendix for a complete response.




                                                                                 Page iii
Office of the Inspector General                                             Inspection Report


BACKGROUND
The Tennessee Valley Authority (TVA) Fossil Power Group's (FPG) coal-fired
generating facilities have been the backbone of TVA's power system since the
1950s. TVA currently has 56 operating units at 11 fossil plant sites in the
Tennessee Valley. TVA's coal-fired generating facilities have 14,675 megawatts
capacity, accounting for above 60 percent of TVA's power generation. TVA's
fossil plants have produced an average of 92.3 billion kilowatt-hours of electricity
per year over the past 10 years.

Fire hazards such as large quantities of fuel, combustible/flammable liquids,
electrical hazards, combustible dusts, and warehousing are common in electric
generating plants. Although fires are not a daily occurrence at TVA, they could
cause severe property damage and business interruption. To mitigate this risk,
various fire protection systems are installed at TVA fossil plants, including:
   Fire pumps
   Hydrants
   Sprinkler/water spray systems
   Hoses
   Halon systems
   Dry chemical systems
   Carbon dioxide systems
   Detection/alarm systems
   Portable fire extinguishers

Fire protection systems are a combination of mechanical and electrical
components and, like power generation equipment, need regular attention. If
these systems are needed, they are counted upon to perform reliably and protect
vital plant equipment from fire. However, every year fire protection systems
throughout the industry fail to operate satisfactorily in fire situations. In about
one-third of these cases, the cause is inadequate inspection, testing, and
maintenance.

At TVA's coal-fired plants, a number of plant personnel participate as fire brigade
members. These individuals take on the responsibilities of fire brigade members
in addition to their normal job duties. Each fire brigade member is required to
receive specialized training. According to TVA policy, fire brigade members are
part of an organized group of TVA employees who are qualified, knowledgeable,
trained in industrial fire fighting, and skilled in at least basic structural fire fighting
operations, who perform advanced exterior and interior structural fire fighting
response duties, and who are trained in the use of protective clothing and
breathing apparatuses.

Inspection 2010-13530                                                                 Page 1
Office of the Inspector General                                                               Inspection Report


Fire prevention and fire protection codes and standards are established by the
National Fire Protection Association (NFPA).1 NFPA codes provide
recommendations, not requirements, for fire prevention and fire protection for
electric generating plants. TVA’s policies and standards for fire protection
equipment and fire brigades are based on NFPA guidelines. Other fire protection
codes and standards exist, but their contents are usually based on NFPA
documents.

OBJECTIVE, SCOPE, AND METHODOLOGY
This review was initiated as part of the 2010 Annual Inspection Plan. The
objective of our review was to determine if the fire protection systems are
adequately maintained and mitigating actions are taken to minimize the impacts
of fires at TVA fossil plants.

To achieve our objective, we:

     Reviewed policies and procedures in place for fire protection.
     Reviewed insurance reports, fire protection self-assessments (FPSA), and
      Problem Evaluation Reports (PER) to identify issues with fire protection
      equipment.
     Reviewed remediation actions taken to address issues identified with the fire
      protection systems in the self-assessments, system impairment reports, fire
      incident reports, and PERs.
     Reviewed system impairment reports for length of time involved in completing
      remediation actions.
     Interviewed fire brigade members at selected fossil plants to determine if the
      training and equipment provided adequately prepared them to respond to an
      actual fire.
     Performed walkdowns at fossil plants to identify issues with fire protection
      equipment and/or fire prevention.

The scope of our review included fire protection systems at five of TVA's fossil
plants and focused on documentation from calendar year 2010. The five plants
we judgmentally selected were: (1) John Sevier, (2) Cumberland, (3) Shawnee,
(4) Paradise, and (5) Gallatin. In addition to the documentation reviewed for
calendar year 2010, we also looked at insurance reports and selected FPSAs
from calendar year 2009.



1
    NFPA is an international non-profit organization whose mission is to reduce the burden of fire and other
    hazards on the worldwide quality of life. NFPA has designed 300 codes and standards to minimize the
    risk and effects of fire. NFPA also provides public safety education, advocacy campaigns, professional
    development training, a premier source for fire data research, and multiple publications on fire and fire
    safety.
Inspection 2010-13530                                                                                   Page 2
Office of the Inspector General                                                               Inspection Report


This review was conducted in accordance with the “Quality Standards for
Inspections.”2

FINDINGS
During our review, we identified a number of issues related to fire protection at
TVA's fossil plants. Specifically, we found (1) that numerous impairments exist
with fire protection systems at a number of the sites, and most are not returned to
service in a timely manner, (2) some fire brigade members have concerns about
fire response preparedness, (3) lessons learned from fire events are not being
consistently communicated across the fleet, (4) opportunities for improvement
with fire prevention, and (5) instances of noncompliance with TVA policy
regarding testing, inspection, and maintenance of fire protection equipment, pre-
fire plans, and use of fire equipment.

NUMEROUS FIRE PROTECTION SYSTEM IMPAIRMENTS EXIST,
AND MOST ARE NOT RETURNED TO SERVICE IN A TIMELY
MANNER
During our review, we observed that numerous impaired fire protection systems
exist at the five plants we reviewed; most were not returned to service in a timely
manner. Numerous impaired fire protection systems place plant personnel and
plant assets at greater risk from fire. Functional fire protection equipment is key
in limiting the impact of a fire, and early operation of a suppression system is
critical during a fire event. Causes of the large number of impairments may have
included:

     Lack of manpower to maintain fire protection equipment
     Aging equipment
     Financial constraints

An impairment is a term for a fire protection system that is out of service. TVA
recognizes three different types of impairments: emergency, planned, and
hidden. An emergency impairment occurs when an unforeseen incident,
accident, or equipment failure impairs the effectiveness of a protective system. A
planned impairment occurs when it is necessary to shut down a fire or life safety
protective system for maintenance or modification. A hidden impairment is an
impairment that is not known to exist. A hidden impairment can be caused when
a system is shut down and inadvertently left out of service upon completion of
work, a system is shut down without proper notification, or a system is
maliciously shut down. In discussions with plant personnel, the issue of hidden
impairments was mentioned as a problem. In 2011, during a walkdown at one of
the sites, TVA personnel discovered nine hidden impairments.

2
    Council of the Inspectors General on Integrity and Ethics' "Quality Standards for Inspections" issued in
    2011.
Inspection 2010-13530                                                                                   Page 3
Office of the Inspector General                                                        Inspection Report


Details of the fire impairments in calendar year 2010 at the five plants we
reviewed can be seen in Figure 1 below. However, as of August 2011, the
number of open impairments at the five plants have been significantly reduced.

Figure 1: Fire Impairments in 20103
                                     Fire Impairments in 2010
      Plant              #              #            #        Average #      Shortest #     Longest #
                    Impairments        Open       Closed        Days            Days          Days
                                                                       4      Impaired      Impaired
                                                              Impaired
 Paradise                 20            14          6             158             6            274
 Shawnee                  49            11          38            40             0             159
  Gallatin                10             1          9             72             12            117
Cumberland                30             0          30            49             0             154
John Sevier                6             2          4             114             0            322

To be effective, fire protection elements should be operable at all times; however,
due to the necessity of repairs, testing modifications, and to provide worker
safety, it is necessary to remove these elements from service periodically.
Therefore, TVA's Fire Protection System Impairments policy provides the
requirements for establishing the administrative controls to assure that complete
precautionary measures are taken for the protection of employees, assets, and
operations against the threat of fire when any life safety, fire barrier, fire
suppression, fire detection, emergency notification system, or fire water supply is
impaired for emergency or pre-planned conditions.

FPG Standard Processes and Procedures (SPP) 18.119, Fire Protection System
Impairments, requires each impairment to be classified as a Priority I, Priority II,
or Priority III. Priority I impairments create an imminent hazard to employees and
property and affects equipment critical to continued operations or the potential for
an environmental release in excess of allowed limits. Priority I impairments are
required to be repaired or restored to operation within 8 hours. Priority II
impairments reduce the protection to employees, property, or the environment,
but are not imminent hazards. Priority II impairments are required to be repaired
or restored to operation within 24 hours. Priority III impairments must be
corrected, but they do not directly reduce the protection to employees, property,
operations, or the environment and are not imminent hazards. Priority III
impairments are required to be repaired or restored to operation within 48 hours.




3
    The numbers in the chart do not include hidden impairments, unless the hidden impairments were
    discovered and recorded in an impairment report.
4
    The average number of days impaired, shortest number of days impaired, and longest number of days
    impaired were calculated only for the closed impairments.
Inspection 2010-13530                                                                             Page 4
Office of the Inspector General                                                            Inspection Report


Figure 2 below shows the breakdown of the impairments by priority levels at the
five plants we reviewed.

Figure 2: Priority Level of Impairments5
                                 Priority Level of Impairments
        Plant            Paradise Shawnee           Gallatin   Cumberland John Sevier
                                         Priority Level I
       Total #               0           30             0           4          0
    Average Days             -           24              -         43          -
     Day Range               -          0-84             -        1-81         -
                                         Priority Level II
       Total #              20            4             0          12          2
    Average Days           158           83              -         15         105
     Day Range            6-274       23-159             -        0-61         -
                                         Priority Level III
       Total #               0           14             5          12          3
    Average Days             -           64            73          81         117
     Day Range               -         8-139         12-90       2-154       0-322
                                        Not Categorized
       Total #               0            1             5           2          1

As shown in Figure 1 on the previous page, the impairments in 2010 that have
been closed were impaired for an average length of between 40 to 158 days
depending on the site. The average number of days far exceeds the maximum
48-hour time frame for system repairs. This increases the risk to plant personnel
and the plant. According to the 2010 insurance report for Shawnee, some fire
impairments have existed for over 2 years. Of the 115 total impairments, 9 were
not given a prioritization level as required by FPG.SPP.18.119, Fire Protection
System Impairments.

In addition to impairments being open for an excessive amount of time, we also
identified that many outstanding work orders for fire protection equipment have
existed at some of the plants. Having greater than 10 outstanding work orders
for fire protection would receive a rating of unacceptable6 in the FPSA. A 2009
insurance report for Paradise stated that there were 140-150 work orders written
for fire protection equipment repairs. The repairs ranged in scope from a leaking
fitting to replacing an entire valve. A 2010 FPSA for Paradise stated that there
were 125-plus fire protection work orders identified as open that needed to be
worked to restore reliability to Paradise fire protection. A 2009 FPSA at
Shawnee indicated over 101 outstanding work orders for fire protection.
According to the FPSAs, TVA aims to have no outstanding work orders for fire
protection.


5
    The average days and day range were calculated only for the closed impairments.
6
    Unacceptable is defined in the FPSAs as an item that does not comply with the requirements for fire
    preparedness, fire codes, and TVA requirements.
Inspection 2010-13530                                                                                 Page 5
Office of the Inspector General                                      Inspection Report


During our interviews with fire brigade personnel, several fire brigade members
indicated that there are not enough maintenance personnel to maintain the
reliability of the fire protection systems.

FIRE BRIGADE MEMBERS HAVE CONCERNS ABOUT FIRE
RESPONSE PREPAREDNESS
During our interviews with fire brigade members, several areas of concern were
identified regarding the fire brigade’s preparedness to respond in the event of a
fire. These included equipment and equipment staging, training, and staffing.
Proper training and equipment are imperative to fire brigade personnel being
able to safely and effectively combat fires. As a result of the identified
deficiencies, TVA’s fire brigade may not be adequately prepared to fight fires and
personnel safety, and plant assets may be at greater risk.

Equipment and Equipment Staging
A number of fire brigade members raised concerns about equipment and
equipment staging. These concerns related to protective apparel, fire trucks,
communication equipment, and equipment-staging areas. One concern is that
there is not enough protective apparel for those members who were not of
“average” size, i.e., those who are taller/larger or shorter/smaller. This could
result in the apparel being cumbersome to put on, restricting movement, and/or
not providing adequate protection for the fire brigade member. TVA policy
FPG.SPP.10.013, Fire Brigade Organization, states that an adequate amount of
fire brigade personal protective clothing shall be maintained in order to ensure
that all employees assigned to the fire brigade can dress out in personal
protective clothing that will fit them.

In addition, there is some concern regarding certain fire trucks. We were told by
fire brigade members that the fire truck at Cumberland is in very poor condition
and that the fire trucks at Paradise and Cumberland are very old.

Another area of concern is related to emergency communication devices used at
John Sevier. Problems with emergency communication devices were identified
by a number of individuals at the site. One fire brigade member told us that the
lack of effective emergency communication devices almost proved fatal during a
recent fire incident. The fire event involved a 4160V electrical board catching
fire. The electricity going to the board should have automatically shut off;
however, it did not. The fire brigade member serving as the dispatcher was
aware that electricity was still flowing to this piece of equipment but was unable
to warn the responding fire brigade members because of problems with the two-
way radios being used. In fact, the dispatcher said he thought he had just killed
four responding fire brigade members. Fortunately, one of the team members
was using an extinguisher on the fire and recognized a slight charge being
conducted back to him through the use of the extinguisher.



Inspection 2010-13530                                                          Page 6
Office of the Inspector General                                      Inspection Report


Another concern related to communication devices was documented in a PER.
The PER stated that during a fire drill conducted on December 14, 2010, the fire
brigade was unable to communicate effectively due to failure of the
communication equipment. The equipment was identified as Nextel i325 radios,
and the lack of communication during the drill resulted in a "fail" rating for the
drill. A TVA-wide team led by PSO is currently searching for replacements for
the Nextel i325 radios.

In addition, at Gallatin, we were told that the fire brigade room did not provide
adequate space to properly stage all of the equipment. Based on viewing the fire
brigade equipment rooms at Gallatin and other facilities, it is clear that staging
space at Gallatin is lacking compared to the other sites. In particular, we noted
that all of the other facilities we visited had adequate space to have the self-
contained breathing apparatuses (SCBA) staged and ready, while Gallatin had
theirs stacked in storage cases. Removing the SCBAs from their cases could
add additional time for fire brigade members to dress and respond. A
comparison of fire brigade equipment rooms at Gallatin and Cumberland can be
seen in Figures 3 and 4 below.

  Figure 3: Gallatin Fire Brigade          Figure 4: Cumberland Fire Brigade
        Equipment Room                              Equipment Room




Inspection 2010-13530                                                          Page 7
Office of the Inspector General                                         Inspection Report


Training
In addition to improvements with equipment and space, several fire brigade
members are of the opinion they could use more training to be better prepared to
respond in a fire event.

Current training requirements for fire brigade members include:

   Initial training, which consists of a 32-hour Fire Brigade Membership Course
    at SERTA.
   Practical reviews consisting of a 24-hour Fire Brigade Member Practical
    Review at SERTA to be completed every 4 years.
   Fire Brigade Computer-Based Training Modules to be completed 4 times a
    year.

Fire brigade members are to participate in fire drills at least once every 6 months.

One specific area where fire brigade members feel they need more training
involved the use of the fire trucks. Several fire brigade members said they had
little to no experience working with the truck. One fire brigade member
commented that they could use additional hazardous material and confined
space rescue training, while others commented they could simply use the current
training more frequently. Overall, the majority of brigade members we
interviewed indicated that training could be expanded, improved, and/or more
frequent.

Staffing
Several fire brigade members told us they do not believe they have adequate
staffing to fill fire brigade positions. FPG.SPP.10.013, Fire Brigade Organization,
requires a minimum of one fire brigade leader and four Level 1 fire brigade
members working on each shift. In addition, during our review of the PERs for
2010, we observed that John Sevier had four PERs relating to insufficient fire
brigade staffing. Three of the PERs were initiated due to shifts without proper
fire brigade staffing. In these instances, additional fire brigade members were
called in to satisfy the staffing requirement. The other PER was initiated because
proposed staffing at the John Sevier Combined Cycle plant may cause
insufficient staffing of the fire brigade members at John Sevier Fossil Plant.

LESSONS LEARNED FROM FIRE EVENTS ARE NOT BEING
CONSISTENTLY COMMUNICATED ACROSS THE FLEET
During the course of our review, we found that lessons learned from fire events
were not being communicated on a consistent basis. FPG.SPP.18.120, Fire
Incident Reporting, states that any fire should be reported, and any other "near
miss" type incident that would be of interest to other plants or facilities should be
reported. However, we were unable to identify a formal process of
communicating information learned from fire events. Communicating
Inspection 2010-13530                                                             Page 8
Office of the Inspector General                                       Inspection Report


consistently across the fleet may help to prevent the recurrence of similar events
at the various sites. If information is not communicated, prevention opportunities
are missed, and the risk to plant personnel and assets may be greater. This is
especially true when TVA had a number of fire incidents during calendar year
2010.

Figure 5 below shows the fire events at each of the five plants. The fire events
ranged from none at John Sevier to 18 at Shawnee. As noted previously in
Figure 1, the site with the highest number of fires in 2010—Shawnee—also
experienced the highest number of fire impairments.

Figure 5: Fire Incidents in 2010
                        Number of Fire Incidents in 2010
                      Paradise                       2
                      Shawnee                        18
                     Cumberland                      2
                       Gallatin                      1
                     John Sevier                      0


In addition to the incidents listed in the chart above, we identified 10 PERs in
2010 for fire incidents. These incidents were not recorded in a fire incident report
in the Operations Information Center (OIC). FPG.SPP.18.120, Fire Incident
Reporting, states that all fire-related incidents shall be reported using the
electronic fire incident report form within 8 hours after the occurrence. Four of
the PERs not recorded in the OIC database were from Shawnee, two were from
Cumberland, two were from John Sevier, and two were from Paradise. For
example, one of the PERs was initiated because of a fire near a coal conveyor
that was caused by a failed roller that caused friction on the belt. Another PER
was initiated because of a fire in a 4kV board.

During our interviews, plant personnel indicated lessons learned were shared in
different ways across the plants and are not always shared with fire brigade
members. One fire brigade member specifically stated that they routinely do not
go over anything from other plants related to lessons learned from fire events.
Another fire brigade member stated that information on lessons learned is shared
in the plan of the day meeting, and it will eventually be passed down from the
Shift Operations Supervisor. Another fire brigade member told us that only
information is shared from major events, and it involves minimal information.
One individual who led a response to a serious fire event said he was never
interviewed or asked any questions about the response.




Inspection 2010-13530                                                           Page 9
Office of the Inspector General                                     Inspection Report


OPPORTUNITIES FOR IMPROVEMENT EXIST WITH FIRE
PREVENTION
While reviewing documentation and performing our walkdowns of the five fossil
sites, we observed areas for improvement with respect to fire prevention. First,
during our walkdowns we witnessed numerous areas of significant coal dust
accumulation at several of the plants. In reviewing FPSAs and insurance
reports, the issue of significant coal dust accumulations was identified several
times. FPSAs for Shawnee stated that the units are only washed down during
outages. TVA Safety Manual Procedure Number 816, Combustible Dust,
requires that combustible dust accumulations shall be maintained less than
1/32 inch on the floor, on overhead beams, joists, ducts, vertical surfaces, the
tops of equipment, and other surfaces. Limiting the accumulation of coal dust
could serve to reduce the frequency and severity of a fire.

Examples of coal dust accumulation can be seen in Figure 6 below and Figure 7
on the following page.

Figure 6: Coal Dust Accumulation at Paradise




Inspection 2010-13530                                                       Page 10
Office of the Inspector General                                      Inspection Report


Figure 7: Coal Dust Accumulation at Cumberland




While we observed areas of significant coal dust accumulation during our
walkdowns, we witnessed firsthand plant personnel performing coal washdowns
as well as areas that had recently been cleaned. These efforts should be
continued, as they are key in limiting coal accumulations. Minimizing coal dust is
an important part of good housekeeping. In addition, some of the plants appear
to have quality housekeeping practices in place. For example:
   John Sevier received a rating of "good" for housekeeping in 2009 and
    2010 from the insurance reports.
   Gallatin received a rating of "excellent" for housekeeping in the same years.

We also observed these two sites to have very good housekeeping during our
visits, and their efforts in this area should be commended.

Another area where we saw an opportunity to improve fire prevention is with
respect to smoking. TVA policy prohibits smoking of any tobacco product,
without exception, in all TVA-owned or leased buildings, as well as in certain
designated outdoor areas identified as smoke-free zones. However, we
observed evidence of personnel smoking inside the buildings at several of the
sites we visited. At one of the sites we witnessed a contractor employee
smoking in the powerhouse. The plant personnel accompanying us on our site
visit immediately addressed the issue with the contractor employee and notified
an on-site supervisor. Smoking could provide an ignition source especially for
areas with significant coal dust accumulations as discussed above.




Inspection 2010-13530                                                        Page 11
Office of the Inspector General                                     Inspection Report


Evidence of smoking seen during our walkdown can be seen in Figure 8 below.

Figure 8: Cigarette Butts Inside One of the Facilities




In addition to the evidence of smoking at several of the sites, we observed a
charcoal grill inside the powerhouse at one of the plants. Permits are required
for the use of open flame in areas with combustible dust. Grilling should only be
done outdoors and should be controlled in accordance with hot work procedure.
TVA personnel accompanying us on our site visit notified management of the
charcoal grill and recommended having it removed from inside the plant.




Inspection 2010-13530                                                       Page 12
Office of the Inspector General                                      Inspection Report


A picture of the charcoal grill can be seen in Figure 9 below.

Figure 9: Charcoal Grill at Paradise




INSTANCES OF NONCOMPLIANCE WITH TVA POLICY
During our review, we found instances of noncompliance with TVA policy. These
related to inspections, testing, and maintenance of fire protection equipment,
updating of pre-fire plans, misuse of fire equipment, as well as coal dust
accumulation and smoking, which were discussed above.

TVA policy FPG.SPP.18.121, Fire Protection System Inspection, Test, &
Maintenance, specifies the weekly, monthly, quarterly, semi-annual and annual
testing and maintenance of all fire suppression systems, fire detection systems,
supervisory switches, fire pump, pressure relief valves, fire hydrants, water spray
tests, standpipes, fire extinguishers, fire doors, dampers, and other related
equipment. This procedure was established using applicable NFPA documents
as a reference including NFPA 25, Standard for the Inspection, Testing, and
Maintenance of Water-Based Fire Protection Systems. Based on our review of
insurance assessments and FPSAs, this policy is not being complied with in
some cases. For example, March and April 2009 FPSAs for Cumberland stated
that annual functional and flow tests for Water-Based Fire Protection Systems



Inspection 2010-13530                                                        Page 13
Office of the Inspector General                                                               Inspection Report


have not been done. The FPSA for this category was rated at watch list.7 In
Shawnee's February 2009 FPSA, a rating of unacceptable was listed for the
annual functional test for all plant-wide fire protection annunciation systems not
being completed. The FPSA also stated that the policy regarding the testing of
the fire alarm control panels was not being followed. Multiple FPSAs at Paradise
in 2009 and 2010 listed unacceptable ratings for annual maintenance not being
performed on all portable and wheeled fire extinguishers. Also, Paradise was
rated at watch list in multiple FPSAs for not checking high pressure CO2 systems
monthly.

In addition, we found instances of noncompliance with TVA policy
FPG.SPP.10.013, Fire Brigade Organization. Section 3.2.7 of the policy, pre-fire
plans, states that pre-fire plans should be updated as needed to reflect any
changes and additions in plant conditions as well as to reflect any changes in fire
hazards, fire suppression activities, or fire suppression equipment. Pre-fire plans
identify the important hazards and safety equipment in each area of the plant,
along with cautions and procedures for certain fire fighting functions. The pre-fire
plans are used as reference documents for emergency responders during a fire
scenario and as training documents to familiarize all personnel with plant
configuration and hazards. The insurance reports consistently noted that pre-fire
plans should be updated. For example, a 2010 insurance report for John Sevier
states that the existing pre-fire plans were last revised in 2000 and that there
have been several plant changes since that time. The insurance report also
states that no pre-fire plans have been developed to include the coal-handling
areas, belt conveyors, out buildings, water treatment buildings, and ash-handling
facilities. The insurance report recommends that the existing pre-fire plans
should be reviewed and revised to show the current plant upgrades for the main
powerhouse and supporting areas. A 2009 insurance report for Paradise
identified similar issues. A 2010 Gallatin insurance report states that the coal-
handling yard is not included in the pre-plans.

Another area of noncompliance was related to the misuse of fire hoses. During
our walkdowns at several sites, we observed fire hoses were being used for
purposes other than fighting fires, such as coal washdowns. FPG.SPP.10.013,
Fire Brigade Organization, Section 3.2.10, states that only eligible fire brigade
members shall use fire fighting equipment, i.e., fire hose, nozzles, appliances,
and wheeled extinguishers. Plant personnel indicated that misuse of fire hoses
has been a recurring problem. Misuse of fire hoses may result in the hoses
being unavailable or damaged when they are needed to respond to a fire. Plant
personnel responsible for fire equipment have taken steps to more clearly mark
fire hoses and explain to the other plant personnel that fire hoses are not to be
used except for fighting fires.




7
    Watch list is defined in the FPSAs as an item that meets the majority of the requirements for fire
    preparedness, fire codes, and TVA requirements.
Inspection 2010-13530                                                                                    Page 14
Office of the Inspector General                                       Inspection Report


RECOMMENDATIONS
We recommend that the Senior Vice President, Fossil Generation:

1. Take immediate steps to restore all impaired fire protection systems to
   service and determine if additional personnel or resources are needed to
   expedite repairs of fire protection systems in the future.
2. Determine (1) the equipment needs of fire brigade members, including
   protective equipment and emergency communication devices, and take steps
   to provide that equipment, (2) what additional training is needed for fire
   brigade members and take steps to provide that training, and (3) if increased
   staffing is warranted for fire brigades.
3. Create and implement a formal process for capturing and sharing lessons
   learned from fire events across the fleet, and capture all fire incidents and
   report them in a consistent manner in the OIC.
4. Perform regular coal washdowns at all the plants to minimize coal dust
   accumulations, and strictly enforce TVA's "No Smoking" policy.
5. Evaluate whether additional personnel are needed to properly inspect, test,
   and maintain fire protection equipment, update pre-fire plans to reflect current
   conditions, and reinforce that fire equipment is only to be used by fire brigade
   personnel.


MANAGEMENT'S RESPONSE
Management's Response - The Senior Vice President, Fossil Generation,
provided comments on a draft of this report and agreed to implement our
recommendations.

In response to our recommendations, management plans to complete the
following actions:

   Revise FPG.SPP.18.119, Fire Protection System Impairments to correspond
    with FPG work management process levels of priority and industry standards.
   Continue to use Management Review Meetings to validate and monitor
    reduction of hidden impairments.
   Inventory all plant fire brigade equipment and determine gaps.
   Begin providing annual refresher training.
   Develop process to track, document, and communicate emergency response
    equipment inspections.
   Revise the Conduct of Operations procedure. Revision will include reference
    to the FPG Fire Impairment procedure and the Fire Incident Reporting

Inspection 2010-13530                                                         Page 15
Office of the Inspector General                                       Inspection Report


    procedure. This reference will establish clear expectations around reporting
    any and all fires. It will also re-enforce expectations that all fire protection
    system components that are removed from service with have a "Fire
    Impairment" documented.
   Revise the OIC to add Operations peer team and the O/E Manager to the
    drop down list, which are automatically notified when an incident is generated.
   A Fleet Focus specific to expectations of adhering to TVA's "No Smoking"
    Policy and reinforcing that fire equipment is only to be used for fire brigade
    personnel will be issued from the Vice President of Operations.
   Evaluate staffing needs as a part of the FY13 Business Planning process.

The complete text of TVA management's response is provided in the Appendix.

Auditor's Comments - We concur with TVA management's planned actions.




Inspection 2010-13530                                                         Page 16
APPENDIX
Page 1 of 4
APPENDIX
Page 2 of 4
APPENDIX
Page 3 of 4
APPENDIX
Page 4 of 4
